<html>
<title> - COMBATING TRAFFICKING IN PERSONS: AN INTERNATIONAL PERSPECTIVE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                   COMBATING TRAFFICKING IN PERSONS:
                      AN INTERNATIONAL PERSPECTIVE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       DOMESTIC AND INTERNATIONAL
                 MONETARY POLICY, TRADE AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 22, 2005

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 109-40



                    U.S. GOVERNMENT PRINTING OFFICE
24-400                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              NYDIA M. VELAZQUEZ, New York
EDWARD R. ROYCE, California          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             GARY L. ACKERMAN, New York
ROBERT W. NEY, Ohio                  DARLENE HOOLEY, Oregon
SUE W. KELLY, New York, Vice Chair   JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                GREGORY W. MEEKS, New York
JIM RYUN, Kansas                     BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           DENNIS MOORE, Kansas
DONALD A. MANZULLO, Illinois         MICHAEL E. CAPUANO, Massachusetts
WALTER B. JONES, Jr., North          HAROLD E. FORD, Jr., Tennessee
    Carolina                         RUBEN HINOJOSA, Texas
JUDY BIGGERT, Illinois               JOSEPH CROWLEY, New York
CHRISTOPHER SHAYS, Connecticut       WM. LACY CLAY, Missouri
VITO FOSSELLA, New York              STEVE ISRAEL, New York
GARY G. MILLER, California           CAROLYN McCARTHY, New York
PATRICK J. TIBERI, Ohio              JOE BACA, California
MARK R. KENNEDY, Minnesota           JIM MATHESON, Utah
TOM FEENEY, Florida                  STEPHEN F. LYNCH, Massachusetts
JEB HENSARLING, Texas                BRAD MILLER, North Carolina
SCOTT GARRETT, New Jersey            DAVID SCOTT, Georgia
GINNY BROWN-WAITE, Florida           ARTUR DAVIS, Alabama
J. GRESHAM BARRETT, South Carolina   AL GREEN, Texas
KATHERINE HARRIS, Florida            EMANUEL CLEAVER, Missouri
RICK RENZI, Arizona                  MELISSA L. BEAN, Illinois
JIM GERLACH, Pennsylvania            DEBBIE WASSERMAN SCHULTZ, Florida
STEVAN PEARCE, New Mexico            GWEN MOORE, Wisconsin,
RANDY NEUGEBAUER, Texas               
TOM PRICE, Georgia                   BERNARD SANDERS, Vermont
MICHAEL G. FITZPATRICK, 
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina

                 Robert U. Foster, III, Staff Director
 Subcommittee on Domestic and International Monetary Policy, Trade and 
                               Technology

                       DEBORAH PRYCE, Ohio, Chair

JUDY BIGGERT, Illinois, Vice Chair   CAROLYN B. MALONEY, New York
JAMES A. LEACH, Iowa                 BERNARD SANDERS, Vermont
MICHAEL N. CASTLE, Delaware          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             MAXINE WATERS, California
RON PAUL, Texas                      BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           PAUL E. KANJORSKI, Pennsylvania
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
MARK R. KENNEDY, Minnesota           LUIS V. GUTIERREZ, Illinois
KATHERINE HARRIS, Florida            MELISSA L. BEAN, Illinois
JIM GERLACH, Pennsylvania            DEBBIE WASSERMAN SCHULTZ, Florida
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
PATRICK T. McHENRY, North Carolina   BARNEY FRANK, Massachusetts
MICHAEL G. OXLEY, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 22, 2005................................................     1
Appendix:
    June 22, 2005................................................    19

                               WITNESSES
                        Wednesday, June 22, 2005

Leidholdt, Dorchen A., Co-Executive Director, Coalition Against 
  Trafficking in Women...........................................    11
Neuwirth, Jessica, President, Equality Now.......................     8
O'Connor, Michael E., Jr., Director of Operations, South Asia 
  International Justice Mission..................................     6
Thompson, Lisa L., Liaison for the Abolition of Sexual 
  Trafficking, The Salvation Army National Headquarters..........    13

                                APPENDIX

Prepared statements:
    Pryce, Hon. Deborah..........................................    20
    Lee, Hon. Barbara............................................    30
    Leidholdt, Dorchen A.........................................    32
    Neuwirth, Jessica............................................    39
    O'Connor, Michael E., Jr.....................................    42
    Thompson, Lisa L. (with attachment)..........................    47

              Additional Material Submitted for the Record

Leidholdt, Dorchen A.
    Written response to questions from Hon. Barbara Lee..........    63
O'Connor, Michael E., Jr.
    Written response to questions from Hon. Barbara Lee..........    65
Thompson, Lisa L.
    Written response to questions from Hon. Barbara Lee..........    67
Neuwirth, Jessica:
    Written response to questions from Hon. Barbara Lee..........    69


                   COMBATING TRAFFICKING IN PERSONS:
                      AN INTERNATIONAL PERSPECTIVE

                              ----------                              


                        Wednesday, June 22, 2005

             U.S. House of Representatives,
         Subcommittee on Domestic and International
            Monetary Policy, Trade, and Technology,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:36 p.m., in 
Room 2128, Rayburn House Office Building, Hon. Deborah Pryce 
[chairman of the subcommittee] Presiding.
    Present: Representatives Pryce, Biggert, Maloney and Moore.
    Chairwoman Pryce. Thank you all very much for your 
patience. We were hung up on the floor with a series of votes, 
and I appreciate my ranking member Mrs. Maloney for being here. 
Good afternoon. We will start right away so as not to hold up 
anybody else any further.
    The hearing on the Committee on Domestic and International 
Policy, Trade and Technology will come to order.
    I would like to welcome everyone this afternoon. Today we 
are convening the second in a series of hearings in this 
subcommittee on a serious issue, trafficking in persons.
    At our first hearing in April, we heard testimony from a 
great leader at the State Department's Trafficking in Persons 
Office, Ambassador John Miller. Ambassador Miller offered a 
thorough and passionate testimony about U.S. efforts to combat 
trafficking here andabroad.
    We also heard from Ms. Norma Hotaling, executive director 
and founder of the SAGE Project in San Francisco. Norma turned 
her own experience with homelessness, addiction and sexual 
exploitation into a mission to make it easier for other women, 
men and youth to want to make lives for themselves and leave 
the sex trade behind.
    Ms. Tina Frundt, our final witness, courageously offered 
her firsthand experience as a victim of sex trafficking and 
sexual exploitation in the United States. Her harrowing 
encounters with victimization by pimps and johns put a human 
face on this tragedy and shed light on an issue that is all too 
often kept in the dark.
    I expect today's hearing to further expose members of this 
subcommittee, members of the media and the public to the 
multifaceted and destructive issues surrounding human 
trafficking, including the significant economic and financial 
implications.
    Today's hearing is timely for a number of reasons. First, 
in stating the obvious, modern-day slavery will be a timely 
issue to debate in the halls of Congress and committees across 
the world until it has its own chapter, complete with a start 
and a finish, in the history books of every country in the 
world.
    Second, just a few weeks ago Ambassador Miller's 
Trafficking in Persons Office at the State Department released 
a much-anticipated Trafficking in Persons report, or the TIP 
report, for 2005. The State Department is required by law to 
submit a report each year to Congress on the efforts of foreign 
governments to eliminate severe forms of trafficking in 
persons. This report covering April 2004 to March 2005 is the 
fifth annual TIP report.
    The intent of the report is to raise global awareness and 
prompt foreign governments to combat all forms of trafficking 
in persons. The report highlights the three Ps, prosecution, 
protection and prevention, and the three Rs, rescue, 
rehabilitation and reintegration. There is great significance 
in this marriage between the Ps and the Rs, and we need to 
focus on both in order to fully understand and tackle the scope 
of the problem.
    During my time overseas meeting with NGOs and victims, I 
saw firsthand the great potential to make this holistic 
approach work. While no country I visited came close to 
perfecting this approach in its entirety, I witnessed improved 
prosecution efforts in Albania, and the implementation of 
better prevention and reintegration efforts in Moldova, showing 
that progress can be made with commitment and coordination 
across the globe. Countries, including the U.S., must strive to 
implement all aspects of this victim-centered approach to 
fighting trafficking.
    The 2005 report gave a Tier 3 classification to 14 of the 
50 countries that were assessed. A Tier 3 country, the lowest 
of the ratings, fails to take significant actions to bring 
itself into compliance with the minimum standards for 
eliminating trafficking in persons. Such an assessment can 
trigger the withholding of nonhumanitarian, nontrade aid, and 
U.S. Opposition to assistance from public lenders, such as the 
International Monetary Fund or the World Bank.
    One country on the Tier 3 list has already ignited action. 
Jamaica, a country previously on the Tier 2 list was downgraded 
because of a failure to follow through on previous commitments 
to strengthen law enforcement and protection measures. Not long 
after the reports were released, the Jamaican Prime Minister 
disclosed in a meeting with several journalists that a Cabinet 
office group consisting of representatives for the Ministries 
of Health, Education and Foreign Affairs, the Attorney 
General's Office and the immigration authorities would be 
established to act on the findings of the report and review 
existing law to identify areas to improve.
    Several countries that were on the Tier 3 list last year 
jumped up a notch this year, and that is a good thing. For 
example, Bangladesh showed a strong commitment to implementing 
antitrafficking efforts over the last year. The country 
established an antitrafficking committee to oversee its 
national efforts to combat the issue, and set up a much-
anticipated special antitrafficking police unit which initiated 
new investigations for rescuing more and more victims.
    And in South Africa, Guyana's President facilitated the 
enactment--South America, excuse me. Guyana's President 
facilitated the enactment of the country's first 
antitrafficking law and launched a countrywide awareness 
campaign on the dangers and risks of trafficking. The report 
revealed that progress is being made in the campaign to combat 
sexual slavery and other forms of forced servitude.
    New antitrafficking measures were enacted in 39 countries 
last year, and there were more than 3,000 convictions worldwide 
relating to trafficking. Upon release of the report, Ambassador 
Miller was quoted as saying, ``Shining through these global 
tragedies are many, many rays of hope.''
    Though there is still much work to be done, the U.S. is 
putting its laws to work. In 2003, Operation Predator was 
launched within the Department of Homeland Security and in the 
Immigration and Customs Enforcement Agency. This marked an 
unprecedented initiative to protect children worldwide from 
sexual predators, including those who travel overseas for sex 
with minors, Internet child pornographers and sex traffickers. 
Operation Predator targets U.S. citizens suspected of sex 
crimes against children, as well as noncitizens whose child sex 
crimes render them deportable from the U.S. Since its inception 
there have been more than 5,700 individuals arrested 
nationwide, including 14 arrests brought under the child sex 
tourism provision of the Protect Act.
    While progress has been made to combat trafficking, 
sobering statistics linger. An estimated up to 800,000 people 
are trafficked across international borders each year; 80 
percent are females, and 50 percent are minors. According to a 
recent study by the International Labor Organization, a special 
agency of the United Nations that seeks to promote human and 
labor rights, at least 12.3 million people are trapped in 
forced labor across the globe. Of this number, over 2 million 
are victims of human trafficking, and 1.2 million are children 
forced into prostitution, drug trafficking and armed conflict.
    These victims of trafficking are an enormous source of 
revenue for organized crime. The ILO study estimates that $44 
billion in global profits is brought in annually from forced 
labor, including 15 billion from victims of trafficking in 
persons.
    This report offers us evidence that there is much to learn 
about how effectively or ineffectively we are following the 
money and enforcing existing antilaundering money laws to 
deprive criminals of the economic gains associated with the 
global sex trade.
    There is not one clear cause of modern-day slavery, nor is 
there one clear solution, but there is a clear goal: to stamp 
it out for good.
    I want to thank the witnesses we have here today. We know 
that you each bring a unique perspective, and we appreciate 
your time, your energy and your courage on educating us about 
this global crisis.
    Chairwoman Pryce. Without objection, all members' opening 
statements will be a made a part of the record, but I would 
like to acknowledge the gentlewoman from New York, Ms. Maloney, 
her passion for tackling this issue is admirable, and I 
appreciate her partnership with me.
    Chairwoman Pryce. Mrs. Maloney.
    Mrs. Maloney. Well, I appreciate very much your leadership 
and partnership on this really, really critical issue, and I 
feel that together we can really make a difference and will 
make some changes that will help thousands, if not millions, of 
young women and men. And I really appreciate your making this 
the spotlight on what the United States is doing and can 
continue to do to combat sex trafficking.
    This is a topic that I personally care about deeply and 
have worked on for many years in Congress. The exploitation of 
the world's young women and children in sex trafficking is a 
tragic human rights offense. As you will hear, many of these 
victims are kidnapped, sold or tricked into brothel captivity.
    The 2004 State Department Trafficking in Persons report 
estimates that 600- to 800,000 persons are trafficked across 
international borders each year, with some 18,000 brought into 
the United States. This doesn't mention the number of people in 
the United States that do not cross international borders that 
are tricked or forced into sex slavery. Instead of the better 
jobs and better lives they dream of, they are trapped into a 
nightmare of coercion, violence and disease.
    I have worked on the trafficking issues for many years, 
including working with the Equality Now, and I am pleased that 
the founder and president of it, Jessica Neuwirth, is one of 
the participants today. She has a background in international 
law. She is an expert on women's rights and has dedicated her 
life to helping women across the globe and in the United 
States.
    We worked together to stop a sex tour operator that was 
operating blatantly in the district I represent in Queens 
called the Big Apple Oriental Tours, and they would literally 
advertise in brochures on the Internet, all over the place. 
Call them up and they would tell all about how they could take 
men or boys on sex tours to the Philippines and Thailand and 
sexually exploit impoverished women and young girls, 
advertising young ages, 11 years old.
    And we worked for 7 years against Big Apple Tours' blatant 
and obvious violations and tried to prosecute them under 
existing laws. It was against the law in the United States, 
against the law in the Philippines, yet they continued to 
operate for 7 years. The Department of Justice declined to take 
action, and only New York Attorney General Eliot Spitzer 
obtained an indictment that shut Big Apple down, and he has 
continued to proceed with this case. Although in the first 
level he was not successful, just the attention and press 
pressure basically closed them down; not a law, but the focus 
that we put on them.
    The story of Big Apple, although a story of some success, 
demonstrates that we need to do more to convince law 
enforcement in this country, as well as abroad, that we need to 
focus on the demand side of the trafficking equation.
    While the laws against prostitution in this country applies 
to johns as well as prostitutes, the overwhelming practice is 
to arrest the women and to let the men go, as though the women 
were the perpetrators and the men the victims. If we see this 
situation through the lens of trafficking, then this is 
backwards. The buyers of sex and the pimps selling it are the 
perpetrators, and the victims are those whose bodies are bought 
and sold.
    It is critical that we protect the women and children 
victims of the sex trade industry and punish the predators that 
exploit them, recruiters, traffickers, brothel owners, 
customers and criminal syndicates. This is why I am so pleased 
to join with Chairwoman Pryce to reintroduce legislation that 
will strengthen U.S. Laws and help victims in our country, 
whether they are foreign or U.S. citizens, and this is H.R 
2012. The End Demand for Sexual Trafficking Act of 2005 combats 
trafficking by going after the purchasers of commercial sex 
acts and providing U.S. Law enforcement with improved tools to 
fight trafficking and assist victims.
    We have 12 cosponsors, and I urge all of the public here 
today to reach out to your Congress Members and Senators to 
urge them to become cosponsors of this important bipartisan 
legislation. And I am hopeful that we will be able to pass it 
this year.
    We are also working together, Deborah Pryce and I. We have 
requested a GAO report to conduct a study of trafficking and of 
what the U.S. and the multilateral development banks are doing 
to combat this problem. We are also working with Sue Kelly, 
with her subcommittee on criminal activity with money 
laundering, to see if there is any money in sex trafficking 
also illegally being laundered.
    This year I also introduced the Prevention of Trafficking 
of Tsunami Orphans Act, which would authorize critical 
assistance to the Department of State and the U.S. Agency for 
International Development to support programs that are being 
carried out by nongovernmental organizations to protect tsunami 
orphans or homeless children from becoming victims of 
trafficking. Although the tsunami is no longer front-page news, 
the thousands of homeless children and orphans it created are 
still very much at risk.
    We certainly must do more to stop the human rights abuses 
inflicted on men, women and children around the world by 
preventing trafficking and ending the sex trade industry. 
Although we continue to make important advances in the rights 
of women throughout the world, as long as there are women whose 
freedoms, livelihoods, bodies and souls are held captive 
because of trafficking, our work will never be done.
    I look forward to your testimony, and I hope that you will 
address many items. But may I ask one particular troubling item 
that has come up that I would like them to address in their 
testimony?
    Believe it or not, since we have been working on this, I am 
now being contacted by many organizations, some of whom are ex-
prostitutes, gems from the Gem Society helping other 
prostitutes restore their lives. But some organizations that 
are arguing they like being prostitutes, they want to legalize 
prostitution, legalize johns--I am not kidding you, I am blown 
away by this.
    And in your testimony, if you could give me your response. 
I have been contacted by two or three organizations coming 
forward with this point of view of having tolerance for the 
beliefs or choices of other people. And one said, I like my 
profession, and, you know--I don't have to draw a picture, but 
I would like to hear your responses of how you would respond to 
that.
    Thank you.
    Chairwoman Pryce. Thank you, Mrs. Maloney. I think some of 
our witnesses look eager to respond to that question.
    Chairwoman Pryce. I would like to introduce now our 
witnesses. Mr. Michael O'Connor serves as the director of 
operations, South Asia, for International Justice Mission, IJM. 
IJM is an international human rights agency that rescues 
victims of violence, sexual exploitation, slavery, oppression 
and other injustices. Based on referrals from relief and 
development agencies around the world, IJM conducts 
professional investigations of abuses, and mobilized 
interventionson behalf of the victims.
    And Ms. Jessica Neuwirth is president of Equality Now. I 
know that the ranking member of the subcommittee gave you some 
recognition. Welcome today.
    And Ms. Dorchen Leidholdt is the co-executive director of 
the Coalition Against Trafficking in Women, which she helped 
found in 1998. An umbrella of grass-roots organizations around 
the world, the Coalition Against Trafficking in Women has 
strong, growing regional networks in Asia, Latin America and 
Africa.
    And Ms. Lisa Thompson is the liaison for the Abolition of 
Sexual Trafficking for the Salvation Army USA National 
Headquarters. In this role she develops and coordinates the 
strategies for the Salvation Army to create recovery services 
for survivors of sexual trafficking. Ms. Thompson is a member 
of the Salvation Army's International Antitrafficking Task 
Force representing the Americas.
    We welcome the witnesses to the hearing today. Without 
objection, your written statements will be made part of the 
record. You will be recognized for 5 minutes to summarize your 
testimony. And, Mr. O'Connor, we will begin with you. Thank you 
very much for being here today.

STATEMENT OF MICHAEL E. O'CONNOR, JR., DIRECTOR OF OPERATIONS, 
            SOUTH ASIA INTERNATIONAL JUSTICE MISSION

    Mr. O'Connor. Chairman Pryce, my name is Michael O'Connor, 
and I work for IJM, International Justice Mission. IJM helps 
rescue slaves, sex trafficking victims, forced labor victims. 
In 2004 alone we helped rescue more than 400 victims of slavery 
and sex trafficking.
    The international data regarding sexual trafficking 
suggests it is a massive problem, but we can't forget that 
there are individual perpetrators and individual victims with 
specific names and faces, and many of these victims are 
children. As but one example, in February of 2003 IJM 
undercover investigators went into a brothel in Svay Pak, 
Cambodia. An investigator was offered several young girls to 
have either sexual intercourse or oral sex with him for $30 an 
encounter. IJM then went to the Cambodia authorities. The 
Cambodian authorities did a raid and rescued 37 young girls, 
all of them under the age of 16; 10 of them were 10 years of 
age or younger, one of them was approximately 5 years old.
    If you extrapolate on a yearly basis, the victims were 
producing for the brothel managers approximately $400,000 a 
year in a country where the per capita income is $2,000. This 
is big money, big business.
    Just a couple months ago undercover agents went into a 
brothel in Southeast Asia where we suspected sex trafficking to 
be taking place. The brothel had about 200 women and girls 
there. An IJM undercover investigator talked to one of the 
women, who said she has sex approximately five times a day, $26 
a time. Again, if you extrapolate, that brothel is pulling in 
approximately $9.5 million a year. This is a lot of money.
    Sex trafficking is not a crime of passion, it is an 
economic crime, and as an economic crime you need a market. You 
have drunk perverts who are trying to find these young girls to 
have sex with, and they find them. IJM was just an NGO, and we 
find them. So why can't the police find them?
    Well, the answer is a complicated one, but at least in part 
it is because many police accept bribes. Many of the countries 
where sex trafficking flourishes are countries where the police 
make desperately woefully inadequate wages, sometimes $40 or 
less per month. Meanwhile, the sex traffickers are making 
literally tons of money and can shower police with money to 
turn a blind eye.
    Where is this money coming from? A lot of it is coming from 
abroad, internationally; a lot of it is coming from sex 
tourism, and sex tourism isn't hidden. You go on the Internet, 
you go to Google, you put ``sex tourism'' into its search 
engine, and you get approximately 1.8 million hits. The second 
of those hits is an organization called WSA, the World Sex 
Archive. It seems to me to be a place where sex tourists can 
compare notes about good places, bad places to go. The Website 
itself says on the ``you need access'' page, quote, ``You will 
save tons of money by joining this site. Imagine spending a ton 
of cash to travel somewhere only to find yourself yanking your 
'blank,''' it is a slang word for male genitalia, ``because the 
cops busted all of the 'blank,''' a slang word for female 
genitalia. This would totally 'blank.' but members of WSA are 
informed. They know the best places to go. We have chicas to 
yank our 'blanks' for us.''
    I am not saying that all sex tourists are pedophiles, but 
some of them are. There is a man named Donald Bakker. He is a 
Canadian citizen, and the Canadian Government, the police 
authorities got a copy of a sex tape that he apparently made of 
having sex with young children, but the Canadian authorities 
couldn't identify who these young children were. 
Coincidentally, one of the Canadian cops on the case was 
watching a Dateline NBC special of the IJM's Svay Pak raid and 
noticed that the same brothel room on the Dateline piece was 
the brothel room that Donald Bakker had used to film his 
videotape. The Canadian authorities called us up, and we shared 
our information with them. Donald Bakker was, last month, 
convicted of seven counts against these young girls in 
Cambodia. But the unique thing is he wasn't prosecuted in 
Cambodia. They didn't have to ship him off to Cambodia to 
prosecute him, they prosecuted him in Canada. It was the first 
time that the Canadian authorities had done this under a new 
law that allows Canadian authorities to prosecute Canadians who 
go abroad and commit sexual acts against children abroad. It is 
a great law. The United States has a similar law. It is called 
the Protect Act. This law needs to be better publicized.
    Child molesters are, in general, cowards. It is why people 
spend so much money to go abroad to have sex with children, 
because they are afraid to do so in the United States because 
they know they will be prosecuted. We have got to get the word 
out that they will be prosecuted if they do such crimes in 
other countries as well.
    One thing I would suggest is that in each new and each 
reissued passport, that just a simple fact sheet be put in that 
passport regarding the contours of the Protect Act so that 
people are put on notice. I would also suggest that people who 
are convicted in the United States of sex crimes against 
children have such convictions stamped in their passports so at 
the very least we put foreign governments on notice of the 
people that they are letting into their country.
    I would like to thank, in conclusion, the Chair as well as 
the bipartisan efforts regarding sex trafficking. The 
traffickers are strong, they are united, they are committed, 
and we have to be committed as they are. Thank you.
    Chairwoman Pryce. Thank you very much, Mr. O'Connor.
    [The prepared statement of Michael E., O'Connor Jr. can be 
found on page 42 in the appendix.]
    Chairwoman Pryce. Ms. Neuwirth.

     STATEMENT OF JESSICA NEUWIRTH, PRESIDENT, EQUALITY NOW

    Ms. Neuwirth. Thank you, Congresswoman Pryce, for this 
opportunity to testify before you. And thank you for your 
interest and support of efforts to combat trafficking in 
persons.
    My name is Jessica Neuwirth, and I am the founder and 
president of Equality Now, an international human rights 
organization based in New York working for the protection and 
promotion of the rights of women and girls around the world.
    Equality Now's membership network is comprised of more than 
25,000 individuals and organizations in 160 countries. Issues 
of concern to Equality Now include trafficking of women and 
girls, as well as rape, domestic violence, reproductive rights, 
female genital mutilation, denial of equal access to economic 
opportunity and political participation, and all other forms of 
violence and discrimination against women and girls.
    The Trafficking Victim Protection Act of 2000 recognized 
that sex tourism is one of the means through which commercial 
sexual exploitation of women and girls has contributed to the 
growth of the international sex industry and feeds the demand 
for sex trafficking. The Trafficking Victims Protection 
Reauthorization Act of 2003 went a step further in requiring 
the dissemination of materials alerting U.S. citizen travelers 
that sex tourism is illegal, will be prosecuted, and presents 
dangers to those involved.
    In evaluating how other countries are addressing human 
trafficking, H.R. 972, the Trafficking Victims Protection 
Reauthorization Act of 2005, would require adding, as a minimum 
standard for eliminating trafficking in the State Department's 
annual report, measures to reduce the demand for commercial sex 
acts and for participation in international sex tourism. We 
should hold ourselves to the same minimum standard and play a 
leadership role for other countries in this regard.
    My comments today will focus on Big Apple Oriental Tours in 
Bellerose and Poughkeepsie, New York, and the G&F Tours of New 
Orleans, Louisiana. I will speak about these sex tour companies 
because in their methods of operation, they demonstrate the 
typical activities of sex tour companies. I will also speak 
about them because the lack of action against them by both 
Federal and State prosecutors is also typical of our country's 
inadequate response to the demand side of the trafficking of 
women and children.
    From its location in New York, as Congresswoman Maloney 
mentioned earlier, Big Apple Oriental Tours was advertising its 
services, communicating with potential sex tourists to persuade 
them to travel with Big Apple Oriental Tours, making airline 
and hotel reservations, and arranging for local tour guides in 
the destination countries to introduce men to women from whom 
they could buy sex. The local Big Apple representative who 
escorted the men to the clubs was also available to negotiate 
the sex acts to be purchased and their price with the mamasan 
who controlled the women in these bars and clubs.
    G&F Tours in New Orleans is currently conducting its 
activities in precisely the same way, even using the same tour 
guide as Big Apple in Thailand.
    It should be simple to prosecute a company that so 
blatantly accepts money to facilitate and arrange commercial 
sex acts. New York penal law section 23020 makes it a class A 
misdemeanor when a person knowingly advances or profits from 
prostitution. Penal law section 23025 makes it a Class D felony 
to knowingly advance or profit from prostitution by managing, 
supervising, controlling or owning, either alone or in 
association with others, a house of prostitution or a 
prostitution business or enterprise involving prostitution 
activity by two or more prostitutes.
    Despite the clear language of the New York penal law and 
the uncontroverted activities of Big Apple Oriental Tours, 
Equality Now campaigned unsuccessfully for 7 years with the 
Queens County District Attorney to prosecute Big Apple Oriental 
Tours for promoting prostitution. Only when the case was 
brought to the attention of New York Attorney General Eliot 
Spitzer in 2003 was a civil proceeding to shut down the company 
undertaken, and a criminal prosecution subsequently commenced. 
The criminal case was dismissed, and then the dismissal was 
reversed on appeal. We are now waiting for another grand jury 
proceeding, and hoping that the case will finally go to trial.
    No other State-level prosecution against sex tour operators 
for promoting prostitution has even been attempted, despite 
most States have similar prohibitions of such activities of 
those in New York that I just described.
    I would like to note that from the beginning of our 
campaign 7 years ago, Congresswoman Maloney has been 
tremendously supportive of our efforts to close down Big Apple 
Oriental Tours and prosecute its owner/operators. I would like 
to thank her for her support, which has been instrumental in 
leading finally to the case currently under way.
    The Federal prosecutors have been equally unwilling to 
address the demand for trafficked women and girls created by 
sex tour operators and their customers. Unless it can be proven 
that children are involved, they are not interested. Very often 
minors are involved, but it is usually impossible to prove. 
Moreover, as a matter of principle as well as practicality, law 
enforcement interest in sex tourism should not be confined to 
cases involving minors.
    Section 2421 of Title 18 of the United States Code, known 
as the Mann Act, provides a 10-year sentence for anyone who 
knowingly transports any individual in interstate or foreign 
commerce with the intent that such individual engage in 
prostitution or in any sexual activity for which any person can 
be charged with a crime.
    Section 2422(a) makes it a crime for anyone who knowingly 
persuades, induces, entices or coerces any individual to travel 
in interstate or foreign commerce to engage in prostitution or 
in any sexual activities for which any person can be charged 
with a criminal offense.
    These provisions of the Mann Act could be effectively used 
against United States sex tour operators, but the Department of 
Defense has so far failed to apply this statute against them. 
Neither of these sections requires that the individual being 
transported or induced or persuaded to travel in foreign 
commerce be the prostituted person or the victim. In other 
words, transporting johns in foreign commerce, which is exactly 
what sex tour companies do, falls within the scope of the Mann 
Act.
    In virtually every popular sex tour destination country, 
such as Thailand, patronizing a prostitute is illegal, and 
johns can be charged with a crime for purchasing sex acts.
    Although both of the Mann Act sections just described could 
be applied to sex tour operators who every day induce, persuade 
and ultimately transport individuals in foreign commerce to 
engage in criminal sexual activity, Equality Now has now not 
been successful in its efforts over the past 6 years to get the 
Department of Defense, United States Attorney's Offices in the 
Eastern District of Louisiana and the Southern District of New 
York to apply the Mann Act against G&F Tours----
    Chairwoman Pryce. Ms. Neuwirth, you are going to have to 
sum up because your time has expired.
    Ms. Neuwirth. Sorry.
    Equality Now welcomes the End Demand for Sex Trafficking 
Act, and thank you for your sponsorship of this bill. The bill 
includes the needed clarification that the Mann Act does apply 
to sex tour operators who transport purchasers, as well as 
sellers of commercial sexual acts. We hope this clarification 
will facilitate law enforcement efforts to end sex tourism. And 
more generally, we welcome the focus on demand for 
prostitution, which is the engine driving the commercial sex 
industry. Thank you.
    Chairwoman Pryce. Thank you. And I am so sorry, we are due 
to have another vote in about 10 minutes, so I wanted to leave 
time for the other witnesses as well. So thank you.
    [The prepared statement of Jessica Neuwirth can be found on 
page 39 in the appendix.]
    Chairwoman Pryce. Ms. Leidholdt.

   STATEMENT OF DORCHEN A. LEIDHOLDT, CO-EXECUTIVE DIRECTOR, 
             COALITION AGAINST TRAFFICKING IN WOMEN

    Ms. Leidholdt. Congresswoman Pryce, Congresswoman Maloney, 
members of the subcommittee, I am grateful for this opportunity 
to address the subject of the economics of sex slavery.
    In addition to speaking as a founder and co-executive 
director of the Coalition Against Trafficking in Women, which 
has been working against all forms of commercial sexual 
exploitation of women and girls since 1998, I am speaking as 
director of the Center for Battered Women's Legal Services, 
Sanctuary For Families. It is a provider of legal and social 
services to domestic violence victims in New York City 
primarily, but has assisted many victims of sex trafficking in 
the United States.
    We have been asked to focus on the economics of the 
international sex trade, and this is a formidable task for 
several reasons. First of all, much of the industry operates 
underground, is run by organized crime groups that don't 
undergo financial audits or file tax returns. Second, only 
recently have criminal justice agencies had the legal mandate 
and motivation to investigate traffickers and other sex trade 
predators. And finally, myths about the agency of women in the 
sex industry accompanied by obliviousness to the role of men, 
both as patrons and profiteers, has led both governments and 
civil society to view the industry as inevitable, harmless, and 
its economics is a matter of little consequence.
    Thankfully all of this has begun to change. The magnitude 
of the industry's harm to women and children propelled into 
conditions of exploitation and slavery, the millions of lives 
maimed and destroyed can no longer be ignored. At the same time 
the growth of the industry over the last two decades in 
particular, the enormous profits made has caused social 
scientists, journalists and economists to begin to pay 
attention and to numbers crunch. If we analyze this growing 
body of data while following the money trail, focusing, as the 
Norwegian feminist group Kvinnefronten urges us to do, on the 
buyer, the bought and the business, a picture of the industry's 
economics and its economic and human toll begins to emerge.
    First the buyer. The economics of the global sex trade in 
women and children starts with the dollars, or pesos, or bhat 
in the pockets of prostitution buyers, known as johns in the 
United States, kerb crawlers in the United Kingdom, and more 
often than not as ordinary husbands and fathers in their 
communities. Although the amount they spend on purchased sex 
varies from country to country and within the sex industry's 
specialties, their collective demand fuels a gigantic global 
industry estimated by a 2004 European Parliament report to turn 
over more money each year than the total of all of the military 
budgets in the world. This doesn't include the money generated 
by the sex industry's Internet sites, which promote and 
facilitate this trade.
    In the U.S. alone, Internet pornographers make an estimated 
$1 billion annually, a figure that is expected to climb to 5- 
to $7 billion by the year 2007.
    Research shows that like perpetrators of domestic violence, 
the buyers of prostitution come from all races, classes, 
nationalities and walks of life. One study shows that about 70 
to 90 percent are married men. While discretionary income 
facilitates their purchase of the body of a women or a child, 
buyers often spend income their families desperately need for 
necessities. Instead of being used to feed, cloth and educate 
their children, this money is spent in ways that place their 
families and communities in jeopardy, at the increased risk of 
HIV/AIDS and the criminal activity that is part and parcel of 
the sex trade.
    The money is also spent in ways that reinforce the buyer's 
perception of women as goods available for a price, a 
perception that is not confined to his activities with 
prostituted women and children, but spills over into his 
interactions with other women, his wife, the women in his 
workplace, the woman he encounters in the street. In other 
words, buyers' transactions inside the sex industry reinforce 
and bolster gender stereotyping and inequality in the rest of 
society.
    The bought. The most acute and damaging manifestation of 
gender inequality, of course, is the buyer's interaction with 
the woman or child he purchases. Even if he does not batter or 
rape her, a frequent reality for sex industry victims, research 
demonstrates that the act that he purchases is experienced by 
her as a violation. One victim, who went on to found the first 
organization of sex industry survivors, called the sex of 
prostitution ``bought and sold rape.'' a Russian trafficking 
victim I work with at Sanctuary for Families likensit to being 
strangled.
    Thousands of testimonies like these gathered by social 
scientists and organizations conducting research into the sex 
trade have led many to conclude that not only is prostitution a 
severe practice of sex discrimination, it is a form of violence 
against women and children that leaves them physically and 
psychologically traumatized.
    Often the buyer's money doesn't even make its way into the 
hands of the woman or girl whose body he purchases, but is 
handed off to the individual or group that owns her. When she 
does take the money, its possession is usually transitory. It 
is rapidly handed off to her pimp, trafficker, madam or 
husband, used to pay off inflated debts, or sent back to the 
family members who sold her into slavery.
    Research shows that even for the ostensible free agent, the 
money made from prostitution is spent on the drugs or alcohol 
she needs to numb her pain and depression so that she can 
endure another day in the sex trade. The romantic fantasy that, 
quote/unquote, sex work is a means to women's economic and 
sexual empowerment, I think described by some of the--
Congresswoman Maloney when she talked about some of the 
interaction with groups that have reached out to her, has been 
punctured by the work of organizations of sex industry 
survivors led by courageous women like SAGE's Norma Hotaling, 
Breaking Free's Vednita Carter, and GEM's Rachel Lloyd, who 
have documented prostitution's grim physical, psychological and 
economic toll, hardly a job like any other as its adherents 
claim.
    Many organizations promoting the point of view that this is 
a job like any other have strong financial connections to the 
sex industry. A couple of years ago I met a woman who held 
herself out as the leader of the sex workers in Mexico City, 
only to learn that her real work was actually running a 
brothel.
    Chairwoman Pryce. Ms. Leidholdt, I will have to ask you to 
sum up, too. I am sorry. We will have time to get back to you 
all in questions.
    Ms. Leidholdt. I have many, many statistics about the 
business. I am afraid I am going to just turn to my 
recommendations at the very end.
    When we followed the sex industry's money trail from the 
hands of the buyer, past the bought, into the coffers of the 
business, it is clear that addressing and stopping the demand 
for all forms of commercial sexual exploitation is essential if 
we are to curtail human trafficking and its devastating 
consequences.
    The Coalition applauds the Trafficking in Persons Office 
for its focus on demand, and urges Federal authorities to 
continue to look to Sweden for inspiration and guidance. We 
wholeheartedly support the End Demand for Sex Trafficking Act, 
especially the incentive it provides State and local law 
enforcement to marshal their resources against the buyer and 
the business. We hope that the swift passage and implementation 
of this legislation will lead to other even stronger Federal 
measures that will hold accountable law enforcement agencies 
that violate equal protection guarantees by penalizing and 
stigmatizing sex industry victims while ignoring the buyers who 
ensure their continued exploitation.
    The sex industry and its lobby have long tried to deny the 
link between prostitution and trafficking, even though research 
consistently demonstrates that most trafficking is for purposes 
of prostitution. If we address only one of the faces of this 
many-headed hydra, our efforts to stop the trafficking of women 
and children will be in vain. The Coalition is grateful to the 
Trafficking in Persons Office, which under the leadership of 
Ambassador John Miller has helped expose the many and 
interrelated facets of the global sex trade----
    Chairwoman Pryce. The gentlewoman's time has expired. Your 
full statement will appear in the record, and we will get back 
to you with questions.
    [The prepared statement of Dorchen A. Leidholdt can be 
found on page 32 in the appendix.]
    Chairwoman Pryce. Ms. Thompson, thank you.

  STATEMENT OF LISA L. THOMPSON, LIAISON FOR THE ABOLITION OF 
  SEXUAL TRAFFICKING, THE SALVATION ARMY NATIONAL HEADQUARTERS

    Ms. Thompson. Today we have heard human trafficking 
referred to as modern-day slavery, and I would like to take 
that slavery analogy a step further and introduce to you what I 
call the sexual gulag. The term ``gulag'' is used to describe 
networks of prisons or labor camps, and during the Soviet era 
the country built a network of prisons for slave labor called 
gulags so vast and brutal that the word was adopted into the 
English language, and its use is synonymous with inhumane and 
torturous prison conditions.
    The Soviet regime and its gulags has collapsed, but a new 
gulag system has risen to take its place, the sexual gulag. The 
sexual gulag is a global system made up of hundreds of 
thousands, if not millions, of brothel, bars, strip clubs, 
massage parlors, escort services and streets where people are 
sold for sex. My use of the term ``gulag'' to describe this 
exploitation is not hyperbole. The analysis laid out in my 
written testimony details the many chilling similarities 
between the two systems, particularly the scale of the systems 
and the dehumanizing treatment of those within the systems. But 
today we only have time to examine one point of commonality, 
and that is a purpose.
    The primary purpose of the Soviet gulag was an economic 
one. They produced a third of the country's gold, much of its 
coal and timber, and a great deal of almost everything else. 
But as you will see, the Soviet gulag and the sexual gulag 
share the same purpose, an economic one. The principal 
difference between the two is that the sexual gulag limits its 
exploitation to one industry, the sex industry.
    The value of the global trade in women as commodities for 
sex has been estimated to be between 7- and $12 billion 
annually. However, as the information I am going to share with 
you demonstrates, these estimates are astonishingly low. As I 
share this information, it is important to keep in mind the 
four following items: One, all prostitution of persons under 18 
is de facto sex trafficking. Two, a high prevalence of foreign-
born women in a country's sex industry is highly indicative of 
sex trafficking. Three, the vast majority of adult women in 
prostitution experience levels of physical and psychological 
abuse that plainly classify them as victims of sex trafficking. 
And four, victims of sex trafficking are used in various forms 
of commercial sexual exploitation such as prostitution, 
pornography and stripping. Thus, prostitution and sexual 
trafficking are intrinsically related; the existence of 
prostitution is the only reason sex trafficking exists.
    Now my main point. The sexual gulag is big business. In 
Japan, where prostitution is not legal, but widely tolerated, 
the sex industry is estimated to make $83 billion a year. There 
are an estimated 150,000 foreign women in its sex industry, 
many from the Philippines, Thailand, Korea, Russia and Latin 
America.
    Prostitution in the Philippines, a de facto legal industry, 
now is the fourth largest source of gross national product for 
the country. The sex industry in the Netherlands is estimated 
to make almost a billion a year, and it is a major destination 
country for trafficked women. In Germany, where prostitution is 
legal, an estimated 400,000 prostituted persons serve 1.2 
million buyers a day, in an industry of an annual turnover of 
18 billion U.S. Dollars.
    Now, in Germany, one of 12 cities to hold the World Cup 
matches, the city is installing a series of drive-in wooden sex 
huts so as to capitalize on the expected boom in the local sex 
trade when the games are in town. In 2003, an IPO of brothel 
shares was introduced on Australia's stock exchange. And a 1998 
study by the IOL said that the sex sector made up as much as 14 
percent of Thailand's gross domestic product.
    The report said, the stark reality is that the sex sector 
is a big business that is well entrenched in the national 
economies and international economy, with highly organized 
structures and linkages to other types of legitimate economic 
activity. According to the reports, the revenues generated by 
the sex industry were crucial to the livelihoods and earnings 
of potentially millions of workers beyond the, quote, 
prostitutes themselves. Owners, managers, pimps, related 
entertainment industry, segments of the tourism industry, 
cleaners, waitresses, cashiers, parking valets, security 
guards, medical practitioners, operators of food stalls, 
vendors of cigarettes and liquor, property owners who rent 
premises to providers for sexual services are just some of 
those who profit from the existence of a sexual gulag.
    In an interview of Ms. Lim, the woman who edited the IOL 
report, she said government policies had encouraged the growth 
of tourism, promoted migration for employment, promoted export 
of female labor for earning foreign exchange, and thus 
contributed indirectly to the growth of prostitution.
    It is clear from the monumental profits generated by the 
sex industry that the fight against the sexual gulag is a 
battle like that of David against Goliath; those who have 
profited have grown extremely powerful, and it will take our 
relentless energy, creativity and sizable resources and 
strategic planning to bring the giant down.
    Current U.S. policy recognizes the innate harm in 
prostitution, acknowledges the symbiosis between prostitution 
and sexual trafficking, and we have a national presidential 
security directive which makes this link. But we need to do 
more, including we want to see passage of the End Demand Act. 
We are fully behind that. But I would also suggest that the 
Congress mandate a report to be done by the international--in 
the State Department the Bureau of Narcotics and Law to look at 
organized crime and the financial aspects of trafficking. That 
would be very productive.
    In addition, we need to enhance the minimum standards of 
the Trafficking Victims Protection Reauthorization Act to 
include provisions such as whether the Government of a country 
sponsors and supports laws tasked with reducing demand for 
international and domestic trafficking in persons as a tier-
rating estimate, as well as whether or not the Government has 
legalized its sex industry. Have they legalized pimping, 
pandering, brothel-keeping, soliciting? These are factors that 
should be considered for reducing them in their tier ranking. 
Thank you.
    Chairwoman Pryce. Thank you very much.
    [The prepared statement of Lisa L. Thompson can be found on 
page 47 in the appendix.]
    Chairwoman Pryce. I know that 5 minutes is not very long to 
devote to this very, very important subject, and I apologize, 
but those are the rules, and we will just try to get--and there 
is the votes. Well, we have probably about 5 minutes. Let me 
ask the first question just real quickly.
    We are trying to get a handle on some money laundering and 
the economy that this terrible crime supports. And how do we 
get those statistics? Who can this committee call upon to start 
to educate us? Mrs. Maloney and I were just saying how 
difficult it is to get our arms around this. Any advice to the 
committee?
    Ms. Leidholdt. Well, in preparing my testimony, I really 
tried to find out what information there was on money 
laundering, and there is very little information out there. I 
know that Professor Donna Hughes, who authored The Natasha 
Trade, has addressed it. And I don't know if she has testified 
before this subcommittee, but I think that she would be an 
excellent person to ask. And she has documented considerable 
money laundering; for example, during the late 1990s, about $10 
billion, proceeds from trafficking in weapons, drugs and 
prostitution in Central Europe and the United States, was 
laundered through the Bank of New York by a Ukrainian-born 
crime boss. She has also documented a great deal of money 
laundering of the profits of prostitution and sex trafficking 
from Eastern Europe into businesses, banks, and real estate 
ventures in Israel. So I think Professor Hughes might be a good 
person to reach out to.
    Chairwoman Pryce. Ms. Thompson, you mentioned that Treasury 
is a good place to start.
    Ms. Thompson. The State Department's Bureau of 
International Narcotics and Law, they already do investigations 
on organized crime, and we just need to ask them to expand 
their purview and look at trafficking. It is under the global--
under Paula Dobriansky's office at the State Department.
    Chairwoman Pryce. Mr. O'Connor.
    Mr. O'Connor. On page 13 of the Trafficking in Persons 
Report, it says that the FBI estimates there is $9.5 billion in 
revenues spent each year in human trafficking. It would be 
fascinating to have someone from the FBI testify on how those 
numbers were gathered.
    Chairwoman Pryce. Mrs. Maloney, I will yield to you.
    Mrs. Maloney. There is just so much to ask, and we have to 
go vote.
    I consider sex trafficking and prostitution violence 
against women the worst form--I consider any discrimination 
violence against women, and I consider this the worst form. But 
since we have been working on it, believe it or not I have been 
contacted by several unions to, quote, legalize prostitution 
and to make it a clear distinction between prostitution and 
trafficking. And they find it offensive that as, quote, sex 
workers that enjoy their trade, that we are acting like they 
are incapable of making decisions on their own.
    And to me, I have a visceral reaction against the entire 
trade. I feel it is exploitation--I cannot imagine any other 
reason but exploitation. But I wanted to give that to you to 
hear what your response is to that.
    We live in a free society. One of our States, Nevada, has 
legalized prostitution. And if you want to think about it and 
get back to us in writing, or if you could respond to it. It 
caught me totally off guard. I did not even know what to say, 
because in my opinion it is exploitation and violence. Would 
anyone like to comment?
    Ms. Neuwirth. I would like to comment briefly on that, I 
think there are two categories of support for prostitution 
coming from a different place. One, the idea--it is an ideology 
support, that prostitution equals work; it is a form of labor 
that should be recognized and legitimated. And I think we 
simply just disagree with that, it is wrong. If you look in the 
trafficking report, figures are quoted, 89 percent of the women 
in prostitution want to escape. I don't think most people see 
this as a form of work, but there is an ideology minority that 
has been put there for that position.
    I think more commonly what you find is people are coming at 
it from a humanitarian point of view: We want to help these 
women; if we make it legal, it will be safer. Again, I feel 
that is completely the wrong direction. And that was an 
argument that was made, of course, with respect to slavery, 
let's just make it safer, more manageable; don't put all the 
slaves in a hold. It is just the wrong way to think about it. 
We want to end this institution. And before we talk about the 
right of prostitution, we should talk about the right to not 
have to be a prostitute.
    Mrs. Maloney. Any other comments?
    Ms. Leidholdt. Well, I am just very suspicious. Who are 
these unions; and in fact, are these really the voices of women 
who have been in prostitution? I mean, one thing we find, a 
little bit like domestic violence, when you are in an abusive 
and oppressive system, you don't have the freedom to speak out 
against it, and you say what your masters want you to say. Once 
you get out, you hear something very different. Norma Hotaling 
represents that point of view.
    But when we have looked at who is speaking out and saying 
this is a job like any other job, this is free choice, very 
often we are finding groups with very, very close ties to the 
sex industry. I mean, the sex industry has a lot of money and a 
lot of power, and many of these groups are indebted to the sex 
industry financially.
    Ms. Thompson. And just earlier we were speaking among 
ourselves, and Jessica made an incredibly poignant point about 
how legalization really creates the perfect umbrella for money 
laundering; what a better opportunity than when you normalize 
an activity that you can hide, you know, criminal activity 
under that legal regime. So I think that would be another 
compelling reason not to legalize.
    But like in the United States, the average age of entry 
into prostitution is between 12 and 14. So we are talking about 
children coming into prostitution, grow up in prostitution; one 
day they are a victim, the next day this is a choice. Now, that 
is simply because of a misunderstanding about what is going on 
in prostitution. And to quote one survivor, she said, ``You 
feel like a piece of hamburger meat, all chopped up and barely 
holding together.'' And that is the predominant view. There is 
always going to be, as Jessica pointed out, the minority of 
people who have experienced prostitution who tout it as 
liberating, but that is the minority.
    Mrs. Maloney. Sir.
    Mr. O'Connor. I can talk about minors. We rescue 15-, 16-, 
17-year-old girls. If we can get them out of the brothels 
within a month or two of them getting there, they are always 
very thankful. If we get them out 5, 6, 10 months after they 
get there, they are not thankful at all when we first rescue 
them.
    These are orphans, or people who have been isolated from 
their families. They have been brutalized, and they have been 
told that the police will rape them if they are rescued. They 
are extremely afraid. And so when you see a 15-year-old telling 
you that, no, she wants to go back to the brothel, it is 
devastating.
    Mrs. Maloney. I just to want say--our time is up, but I 
think all of you are extraordinary, and your testimony was 
incredibly moving. I could listen to you all day. But we will 
not be coming back, the Chairwoman tells me, but if you could 
get to us any examples of what you have heard that is happening 
in the States around our country in combating this violence, it 
would be helpful.
    And also, I think the story of Jessica Neuwirth with Big 
Apple Tours, where it is obviously against our laws, against 
the laws of the other countries, yet the law enforcement people 
we went to--and we went to many, many offices--said they were 
powerless to react to it. And it shows the need, that we do 
need the law that we are working on. And if you have other ways 
that you think we should--other things we should be working on, 
if you could get it to us, we would really appreciate it. Thank 
you very much.
    Chairwoman Pryce. Ms. Moore, you have been patient. And 
there is probably about 7 minutes left. Would you like to take 
just a few minutes and ask a question or two?
    Ms. Moore. Thank you so much, Madam Chair. I, too, am very, 
very interested in this topic, and I appreciate the thrust and 
focus of this panel to look at the buyers in the industry. One 
of my trepidations about this topic has always been to wage 
some enforcement battle against the victims, and so I am happy 
to see this focus. Thank you.
    Chairwoman Pryce. Thank you. And once again, the record 
will remain open for 30 days for any member who was here--or 
even who wasn't here--who would like to put forth some 
questions. And so if you wouldn't mind answering those if any 
come forward, we would really appreciate it.
    Chairwoman Pryce. The demands of a congressional day in 
terms of our voting schedule are really not of our own making, 
and we just don't have any control over them, but we do so much 
appreciate what we know you do day in and day out, and once 
again, is it is so hard to sum up in 5 minutes. But hopefully 
we will continue in this battle together. Thank you for your 
presence here today, and we are adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]


                            A P P E N D I X



                             June 22, 2005


[GRAPHIC] [TIFF OMITTED] T4400.001

[GRAPHIC] [TIFF OMITTED] T4400.002

[GRAPHIC] [TIFF OMITTED] T4400.003

[GRAPHIC] [TIFF OMITTED] T4400.004

[GRAPHIC] [TIFF OMITTED] T4400.005

[GRAPHIC] [TIFF OMITTED] T4400.006

[GRAPHIC] [TIFF OMITTED] T4400.007

[GRAPHIC] [TIFF OMITTED] T4400.008

[GRAPHIC] [TIFF OMITTED] T4400.009

[GRAPHIC] [TIFF OMITTED] T4400.010

[GRAPHIC] [TIFF OMITTED] T4400.011

[GRAPHIC] [TIFF OMITTED] T4400.012

[GRAPHIC] [TIFF OMITTED] T4400.013

[GRAPHIC] [TIFF OMITTED] T4400.014

[GRAPHIC] [TIFF OMITTED] T4400.015

[GRAPHIC] [TIFF OMITTED] T4400.016

[GRAPHIC] [TIFF OMITTED] T4400.017

[GRAPHIC] [TIFF OMITTED] T4400.018

[GRAPHIC] [TIFF OMITTED] T4400.019

[GRAPHIC] [TIFF OMITTED] T4400.020

[GRAPHIC] [TIFF OMITTED] T4400.021

[GRAPHIC] [TIFF OMITTED] T4400.022

[GRAPHIC] [TIFF OMITTED] T4400.023

[GRAPHIC] [TIFF OMITTED] T4400.024

[GRAPHIC] [TIFF OMITTED] T4400.025

[GRAPHIC] [TIFF OMITTED] T4400.026

[GRAPHIC] [TIFF OMITTED] T4400.027

[GRAPHIC] [TIFF OMITTED] T4400.028

[GRAPHIC] [TIFF OMITTED] T4400.029

[GRAPHIC] [TIFF OMITTED] T4400.030

[GRAPHIC] [TIFF OMITTED] T4400.031

[GRAPHIC] [TIFF OMITTED] T4400.032

[GRAPHIC] [TIFF OMITTED] T4400.033

[GRAPHIC] [TIFF OMITTED] T4400.034

[GRAPHIC] [TIFF OMITTED] T4400.035

[GRAPHIC] [TIFF OMITTED] T4400.036

[GRAPHIC] [TIFF OMITTED] T4400.037

[GRAPHIC] [TIFF OMITTED] T4400.038

[GRAPHIC] [TIFF OMITTED] T4400.039

[GRAPHIC] [TIFF OMITTED] T4400.040

[GRAPHIC] [TIFF OMITTED] T4400.041

[GRAPHIC] [TIFF OMITTED] T4400.042

[GRAPHIC] [TIFF OMITTED] T4400.043

[GRAPHIC] [TIFF OMITTED] T4400.044

[GRAPHIC] [TIFF OMITTED] T4400.045

[GRAPHIC] [TIFF OMITTED] T4400.046

[GRAPHIC] [TIFF OMITTED] T4400.047

[GRAPHIC] [TIFF OMITTED] T4400.048

[GRAPHIC] [TIFF OMITTED] T4400.049

[GRAPHIC] [TIFF OMITTED] T4400.050

[GRAPHIC] [TIFF OMITTED] T4400.051


</pre></body></html>
